                     U.S. ENVIRONMENTAL PROTECTION AGENCY

                     OFFICE OF INSPECTOR GENERAL



                      Spending Taxpayer Dollars


                     EPA’s Fleet Management
                     Program Needs Improvement
                     Report No. 15-P-0001                   October 6, 2014




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                                 Marcia Hirt-Reigeluth
                                                     Anthony Grear
                                                     Cara Lindsey
                                                     Andres Calderon
                                                     Gloria Taylor-Upshaw
                                                     Michael Davis




Abbreviations

AST            Automotive Statistical Tool
EPA            U.S. Environmental Protection Agency
FAST           Federal Automotive Statistical Tool
FMR            Federal Management Regulation
GAO            Government Accountability Office
GSA            General Services Administration
NEIC           National Enforcement Investigations Center
OARM           Office of Administration and Resources Management
OCEFT          Office of Criminal Enforcement, Forensics and Training
OIG            Office of Inspector General
OMB            Office of Management and Budget
U.S.C.         U.S. Code
FY             Fiscal year


Cover photo: Picture of an EPA fleet vehicle taken during the audit. (EPA OIG photo)


 Are you aware of fraud, waste or abuse in an            EPA Office of Inspector General
 EPA program?                                            1200 Pennsylvania Avenue, NW (2410T)
                                                         Washington, DC 20460
 EPA Inspector General Hotline                           (202) 566-2391
 1200 Pennsylvania Avenue, NW (2431T)                    www.epa.gov/oig
 Washington, DC 20460
 (888) 546-8740
 (202) 566-2599 (fax)
 OIG_Hotline@epa.gov                                     Subscribe to our Email Updates
                                                         Follow us on Twitter @EPAoig
 More information at www.epa.gov/oig/hotline.html.       Send us your Project Suggestions
                         U.S. Environmental Protection Agency                                                   15-P-0001
                                                                                                           October 6, 2014
                         Office of Inspector General


                         At a Glance
Why We Did This Review                EPA’s Fleet Management Program Needs Improvement
The U.S. Environmental                 What We Found
Protection Agency (EPA),
Office of Inspector General           The EPA’s oversight of its fleet                 If oversight of the EPA’s fleet is
(OIG), initiated this audit to        management program needs improvement.            not improved, the $6 million-
determine whether the EPA’s           The OIG identified three areas that              per-year program could be
fleet program is in accordance        reinforce the need for more oversight:           ineffective and inefficient in
with federal fleet requirements                                                        supporting the agency’s mission
for vehicle operations,                    The EPA has not finalized or issued        and reporting data to the federal
acquisitions and utilization.                                                          system, and could place
                                            guidance documentation to manage
                                                                                       taxpayer funds at risk.
Federal agencies are to use                 the fleet in over 5 years.
government vehicles to fulfill             Fleet managers were not following program requirements and federal
their mission. The Federal                  regulations for vehicle emission testing, tracking vehicle usage, and ensuring
Management Regulation sets                  operator responsibilities.
forth requirements governing               The EPA lacks documentation to support its approval of law enforcement
the economical and efficient                vehicles in home-to-work status.
management and control of
motor vehicles that the               Without adequate oversight of the fleet program, the agency is not ensuring that
government owns, leases               the $6 million-per-year program is efficient and effective to perform the agency’s
commercially, or leases               mission, and is placing taxpayer funds at risk.
through the General Services
Administration fleet.                 We also found that the EPA should increase monitoring of data within the
                                      agency’s fleet information system, known as the Automotive Statistical Tool
This report addresses the             (AST). We identified missing, incomplete or incorrect information in the fleet
following EPA goal or                 system. In addition, user data input from one report or screen in the AST is not
cross-agency strategy:                reported consistently in other system reports. The EPA has not developed or
                                      issued an AST manual or a list of procedures to ensure users correctly input
  Embracing EPA as a high-           information into the system. The AST-programmed data checks are not effective
   performing organization.           in identifying differences in varying system reports. If data in the EPA’s fleet
                                      information system is not accurate, the agency is at risk of reporting errors to the
                                      federal information system.

                                       Recommendations and Planned Corrective Actions

                                      The OIG recommended that the Assistant Administrator for Administration and
                                      Resources Management:
                                           Finalize and issue the Fleet Management Manual to ensure that fleet
                                            managers operate programs within the agency’s policies and procedures.
Send all inquiries to our public
                                           Require fleet managers to perform vehicle emission testing, use a tracking
affairs office at (202) 566-2391 or         system for vehicle usage, and require operators to acknowledge
visit www.epa.gov/oig.                      responsibilities.
                                           Require fleet managers with law enforcement vehicles to confer with the
The full report is at:                      Office of Administration and Resources Management to ensure the agency
www.epa.gov/oig/reports/2015/               has an acceptable level of documentation to meet reporting requirements.
20141006-15-P-0001.pdf                     Develop and issue an AST manual or a list of procedures for users to help
                                            ensure data input is correct in the system.
                                      The agency agreed with our recommendations and provided corrective actions.
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460


                                                                               THE INSPECTOR GENERAL




                                            October 6, 2014


MEMORANDUM

SUBJECT:       EPA’s Fleet Management Program Needs Improvement
               Report No. 15-P-0001

FROM:          Arthur A. Elkins Jr.

TO:            Nanci Gelb, Acting Assistant Administrator
               Office of Administration and Resources Management

This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the problems
the OIG has identified and corrective actions the OIG recommends. This report represents the opinion of
the OIG and does not necessarily represent the final EPA position. Final determinations on matters in
this report will be made by EPA managers in accordance with established audit-resolution procedures.
The office responsible for implementing the recommendations is the Office of Administration and
Resources Management’s Office of Administration, Facilities Management and Services Division.

Action Required

In accordance with EPA Manual 2750, your office provided acceptable and complete planned corrective
actions in response to OIG recommendations. All recommendations are resolved and no final response to
this report is required.

We will post this report to our website at http://www.epa.gov/oig.
EPA’s Fleet Management Program                                                                                           15-P-0001
Needs Improvement




                                  Table of Contents
Chapters
   1    Introduction ......................................................................................................      1

                Purpose .....................................................................................................    1
                Background................................................................................................       1
                Responsible Office .....................................................................................         2
                Scope and Methodology ............................................................................               2

   2    EPA Needs to Improve Oversight of Its Fleet Management Program ...........                                               3

                EPA’s Oversight of Its Fleet Management Program…………………...........                                                3
                Federal Laws and Regulations Governing the Management and
                  Monitoring of a Fleet Program ................................................................                 4
                EPA Has Not Issued a Fleet Manual That Provides Direction to
                  Fleet Managers ......................................................................................          5
                EPA Fleet Managers Did Not Follow Program Requirements ....................                                      5
                EPA Needs to Improve Documentation to Support Home-to-Work
                  Use of Law Enforcement Vehicles .........................................................                      6
                EPA Should Be Consistent in Documenting Emission Testing and
                  State Inspections ...................................................................................           8
                Conclusion .................................................................................................      9
                Recommendations .....................................................................................             9
                Agency Comments and OIG Evaluation .....................................................                         10

   3    EPA Needs to Increase Data Monitoring of Its Fleet Information
        System............ ...................................................................................................   11

                EPA’s Automotive Statistical Tool Is Its Fleet Information System ..............                                 11
                Federal Regulations Governing Information System Data Management ....                                            12
                The AST Needs a Manual, a List of Procedures and More
                  Data Checks………………….................................................................                            12
                Conclusion .................................................................................................     13
                Recommendations .....................................................................................            14
                Agency Comments and OIG Evaluation .....................................................                         14

   Status of Recommendations and Potential Monetary Benefits….…………. ..........                                                   15



Appendices
   A    OARM Response to Draft Report and OIG Comment.....................................                                       16

   B    Distribution ......................................................................................................      19
                                  Chapter 1
                                   Introduction
Purpose
            The purpose of this assignment was to help the U.S. Environmental Protection
            Agency (EPA) embrace its cross-cutting strategy to be a high-performing
            organization. The audit objective of the Office of Inspector General (OIG) was to
            determine whether the EPA’s fleet program operates in accordance with federal
            fleet requirements for vehicle operations, acquisitions and utilization.

Background
            Federal agencies are to use government vehicles to fulfill their mission. As part of
            our audit, we relied on specific provisions of the Federal Management Regulation
            (FMR), Subchapter B, Part 102-34, titled Motor Vehicle Management. This
            federal regulation sets forth requirements governing the economical and efficient
            management and control of motor vehicles that the government owns, leases
            commercially, or leases through the General Services Administration (GSA) fleet.
            All executive agencies are required to comply with the provisions of this part. We
            reviewed several subparts of this regulation, including Subpart A, General
            Provisions, which identifies the motor vehicles that are covered and not covered
            by this subpart. Section 102-34.20(d) provides that motor vehicles regularly used
            by an agency to perform investigative, law enforcement or intelligence duties are
            subject to only Subpart D, and Subpart J of the subchapter.

            We also reviewed Subpart D, Official Use of Government Motor Vehicles;
            Subpart F, Scheduled Maintenance of Motor Vehicles; and Subpart J, Federal
            Fleet Report.

            The FMR requires the establishment of a fleet management information system
            that identifies and collects accurate inventory, cost and usage data that covers the
            vehicle lifecycle. We noted that the Government Accountability Office (GAO)
            publication, Standards for Internal Control in the Federal Government
            (November 1999), provides that application controls are designed to help ensure
            completeness, accuracy, authorization and validity of all transactions during
            application processing. An application control is designed to cover the processing
            of data within the application software. According to the Office of Management
            and Budget (OMB) Circular A-123, “internal control is an integral component of
            an organization’s management” that provides reasonable assurance that the
            organization is achieving the objective of “effectiveness and efficiency of
            operations.”



15-P-0001                                                                                      1
            During our audit we also reviewed the Office of Criminal Enforcement, Forensics
            and Training (OCEFT) policy, titled Government-Owned Vehicles
            (OCEFT-P-006), dated June 30, 2012. This policy sets forth procedures governing
            OCEFT’s law enforcement vehicles.

            As of July 2013, the EPA’s fleet was comprised of 1,064 vehicles. This number
            includes 119 vehicles acquired in fiscal year (FY) 2013 and 225 vehicles acquired
            in FY 2012. The EPA’s fleet costs for FY 2013 were $6 million.

Responsible Office
            The office responsible for implementing the recommendations in this report is the
            Office of Administration and Resources Management’s Office of Administration,
            Facilities Management and Services Division.

Scope and Methodology
            We conducted this audit from June 2013 through July 2014, in accordance with
            generally accepted government auditing standards issued by the Comptroller
            General of the United States. Those standards require that we plan and perform
            the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
            for our findings and conclusions based on our audit objectives. We believe that
            the evidence obtained provides a reasonable basis for our findings and
            conclusions based on our audit objectives.

            We reviewed EPA policies and procedures governing the fleet program. We also
            interviewed the Agency Fleet Manager, as well as program office, regional and
            local fleet managers. The EPA’s contractor staff trained our audit team on the
            EPA’s Automotive Statistical Tool (AST), and the OIG obtained data from the
            system to verify with source documentation. We sampled 18 vehicles (7 percent)
            of the 236 vehicles located in Atlanta, Georgia; Philadelphia, Pennsylvania; and
            the Washington D.C., metro area. We selected our sample based on the location
            of the staff and the number of vehicles each staff could review during the
            preliminary research period.
            For each sample vehicle we reviewed utilization records, fuel and repair costs;
            inventoried the vehicle type, license plates, and mileage; and noted any general
            observations. We did not increase our sample after preliminary research due to
            our finding of the need for increased oversight.
            During this audit we also performed an internal review of the OIG fleet. We plan
            to address issues identified in a separate report to the Inspector General, which
            will be made available to the public on our website at http://www.epa.gov/oig.




15-P-0001                                                                                        2
                                  Chapter 2
        EPA Needs to Improve Oversight of Its Fleet
                 Management Program
            The EPA’s oversight of its fleet management program needs improvement. We
            identified the following three areas that contribute to the need for more oversight:

                      The EPA has not finalized or issued guidance documentation to
                       manage the fleet in over 5 years.

                      Fleet managers were not following program requirements and federal
                       regulations for vehicle emission testing, tracking vehicle usage, and
                       ensuring operator responsibilities.

                      The EPA lacks documentation to support its approval of law
                       enforcement vehicles in home-to-work status.

            Federal requirements for fleet management provide that agencies are to exercise
            economical and efficient management and control of motor vehicles that the
            government owns or leases. Also, OMB Circular A-123 provides that internal
            control is an integral component of an organization’s management that provides
            reasonable assurance that the organization is achieving the objective of
            effectiveness and efficiency of operations. By not having enough oversight of the
            fleet program, the agency is not ensuring that the $6 million-per-year program is
            efficient and effective, and is placing taxpayer funds at risk.

EPA’s Oversight of Its Fleet Management Program
            The EPA’s December 2013 draft fleet manual provides that the Assistant
            Administrator for the Office of Administration and Resources Management
            (OARM) has the responsibility to provide direction for developing and
            establishing an effective and efficient fleet management program. Specifically,
            the responsibilities include providing guidance on good management practices
            based on established policies and procedures; evaluating and reviewing fleet
            management operations and processes; and assigning responsibilities to others by
            grants of authority, instruction and direction.

            The Agency Fleet Manager is responsible for administering and implementing
            fleet management guidelines (i.e., the guidelines set forth in the manual) across all
            designated vehicle motor pools for EPA regions, offices and programs. The
            Agency Fleet Manager has responsibilities for inspecting operations and activities
            for compliance with laws and regulations governing the use of government-owned
            vehicles; and providing agencywide review of all vehicle acquisitions, operations



15-P-0001                                                                                       3
                  and disposals. Fleet managers at the program office, regional, and local levels1
                  have numerous responsibilities for all government-owned vehicles and motor
                  pools within their purview, including daily operations of EPA’s motor vehicles.

Federal Laws and Regulations Governing the Management and
Monitoring of a Fleet Program
                  Several federal laws and regulations address how agencies should manage and
                  monitor their fleet programs. The FMR, Subchapter B, Personal Property, is the
                  regulation that governs fleet management. The federal regulation sets forth
                  requirements governing the economical and efficient management and control of
                  motor vehicles that the government owns, leases commercially, or leases through
                  the GSA fleet. Subpart D, Section 102-34.205, provides that vehicle operators
                  may not use a government vehicle for transportation between a residence and a
                  place of employment, unless the agency authorizes such use after making a
                  determination under the U.S. Code using 31 U.S.C. 1344. The agency must keep a
                  copy of the written authorization within the agency and monitor the use of the
                  vehicles.

                  Subpart F, Section 102-34.275, requires that an agency have a scheduled
                  maintenance program for each motor vehicle owned or leased commercially. The
                  scheduled maintenance program must meet federal and state emissions and safety
                  standards, manufacturer warranty requirements, ensure the safe and economical
                  operating condition of the motor vehicle throughout its life, and ensure that
                  inspections and servicing occur as recommended by the manufacturer or more
                  often if local operating conditions require. Section 102-34.280 requires that an
                  agency perform federally mandated emissions inspections when required by the
                  relevant state motor vehicle administration or state environmental department.

                  Subpart J, Section 102-34.335, provides that on an annual basis agencies must
                  submit to the GSA the information needed to produce the Federal Fleet Report
                  through the Federal Automotive Statistical Tool (FAST). The FAST is an
                  Internet-based reporting tool. This section also requires reporting on the following
                  five categories: inventory, acquisitions, operating costs, miles traveled, and fuel
                  used. Section 102–34.345 provides that agencies are responsible for developing
                  and keeping adequate accounting and reporting procedures for government motor
                  vehicles. These procedures ensure the accurate recording of inventory, costs and
                  operational data needed to manage and control motor vehicles, and will satisfy
                  reporting requirements.




1
 Heretofore, any references in this report to the plural “fleet managers” pertains to the fleet managers at the program
office, regional and local levels but not the “Agency Fleet Manager.”


15-P-0001                                                                                                            4
                  OMB Circular A-123, Revised, Section II, states:

                           Internal control is an integral component of an organization’s
                           management that provides reasonable assurance that the following
                           objectives are being achieved: effectiveness and efficiency of
                           operations, reliability of financial reporting, and compliance with
                           applicable laws and regulations. 2 Internal control, in the broadest
                           sense, includes the plan of organization, methods and procedures
                           adopted by management to meet its goals. Internal control includes
                           processes for planning, organizing, directing, controlling, and
                           reporting on agency operations.

EPA Has Not Issued a Fleet Manual That Provides
Direction to Fleet Managers
                  The EPA has not finalized the fleet program guidance that details all requirements
                  for the program and the required procedures for program offices. The EPA’s fleet
                  manual has been in the draft phase for at least 5 years. During the course of our
                  audit, we were able to identify three draft versions of the manual. One draft was
                  dated April 2009, another version was provided to us as a July 2012 draft, and the
                  latest version was provided on December 2013. The Agency Fleet Manager said
                  he might need to remind fleet managers to read the manual; however, it was not
                  clear which version of the manual the Agency Fleet Manager expected fleet
                  managers to use prior to final issuance. A finalized policy is an internal control
                  that contributes to providing the EPA with reasonable assurance that it is
                  achieving effective and efficient operations. We believe the EPA must finalize
                  and issue a fleet manual to ensure that the program has guidelines to support the
                  agency’s $6 million-per-year operating costs for the program.

                  Without any official agency policy in place, fleet managers are not using specific
                  processes to manage and monitor use of vehicles. By not making it a priority to
                  finalize and issue a fleet manual, the EPA is not able to enforce program policies
                  and procedures and is placing the fleet program in jeopardy. In April 2014, the
                  agency said it recognizes that the manual needs be finalized, and in July 2014, the
                  EPA provided the OIG with a final draft that is currently going through a
                  clearance process before being published as an official EPA manual.

EPA Fleet Managers Did Not Follow Program Requirements
                  The EPA’s fleet managers were not following program requirements specific to
                  performing vehicle emission testing, tracking vehicle usage, and ensuring vehicle
                  operators were aware of responsibilities.


2
 Internal control standards and the definition of internal control are based on the GAO’s Standards for Internal
Control in the Federal Government, November 1999 (referred to as the “Green Book”).


15-P-0001                                                                                                          5
            For our sampled vehicles, fleet managers were not able to provide supporting
            documentation to verify emission testing for vehicles. In addition, managers do
            not consistently use a tracking system to record the use of vehicles. We found that
            fleet managers used different processes to obtain vehicle information. Some
            sampled vehicles did not have utilization logs, or the logs were incomplete and
            vehicle operators had not acknowledged their responsibilities.

            The Agency Fleet Manager said his office relies on fleet managers to enforce
            established federal requirements and the requirements in the draft manual. Also,
            workshops are held, and quarterly newsletters are issued, to keep key personnel
            informed about fleet requirements. The Agency Fleet Manager noted that some
            fleet managers do not have supervisory authority over all the fleet managers in
            their area. He stated that for some fleet managers, implementing the program is a
            collateral function of their primary duties. Further, due to the lack of travel funds,
            the Agency Fleet Manager said his office is unable to perform site visits. We
            believe that the EPA should determine if its investment in the fleet program
            warrants implementing a process to ensure fleet managers are enforcing program
            requirements.

            By not ensuring that vehicles have supporting documentation for emission testing,
            the EPA’s fleet may be at risk of not meeting state emission standards. Also, the
            EPA increases the chance that the unauthorized use of vehicles could go
            undetected by not utilizing a tracking system. Lastly, without vehicle operators
            having the required knowledge about their responsibilities, the agency has no
            means of holding vehicle operators accountable for implementing federal
            requirements while operating the vehicle.

            In an effort to address local fleet managers not consistently complying with
            guidance provided in the fleet manual, the EPA plans to issue a memorandum to
            remind personnel about fleet management oversight duties and to outline new
            fleet management measures. In addition, the EPA noted that in order to provide
            better oversight, the agency plans to incorporate random monthly checks of
            vehicle utilization reports to determine appropriate vehicle tracking, and to
            incorporate random monthly checks of vehicle operator responsibility forms to
            determine appropriate fleet operations.


EPA Needs to Improve Documentation to Support Home-to-Work Use
of Law Enforcement Vehicles
            OCEFT Policy P-006, Government-Owned Vehicles, allows government-owned
            or leased vehicles to be used for official purposes only. The policy prohibits the
            mingling of personal business with official business while using a government
            vehicle, except for defined, permitted personal or incidental uses as allowed in the
            policy. The policy also addresses the various appropriate uses and procedures for
            the management of vehicles owned or leased by the government. Section 3.2(a)



15-P-0001                                                                                        6
            13 states that special agents and protective service detail employees, as authorized
            by the Administrator, can use government-owned vehicles to commute directly
            from their residences to their duty stations and from their duty stations to their
            residences at any time.

            The FMR, Subpart D, Section 102-34.205, provides that an agency can authorize
            the use of government vehicles between a residence and a place of employment
            (home-to-work), after the agency makes such a determination under 31 U.S.C.
            1344, maintains a copy of the written authorization within the agency, and
            monitors the use of these motor vehicles. Also, 31 U.S.C. 1344 (a)(2)(B) provides
            that transportation between the residence of an officer or employee and various
            locations (i.e., transportation viewed as essential for the safe and efficient
            performance of intelligence, counterintelligence, protective services, or criminal
            law enforcement duties) is transportation for an official purpose when approved in
            writing by the head of the federal agency.

            We requested the EPA’s written authorization for law enforcement vehicles’
            home-to-work usage. The EPA provided documentation supporting the agency
            head’s approval in an April 29, 1988, memorandum from the Administrator
            authorizing the use of vehicles between home and work for occupational series
            GS-1811 criminal investigators appointed through the National Enforcement
            Investigations Center (NEIC), Office of Criminal Investigations. The agency also
            provided an authorization through a May 31, 2005, memorandum for occupational
            series GS-1801 operations support specialists. However, OCEFT’s Criminal
            Investigation Division was not mentioned in the documentation.

            OCEFT explained that in the early 1990s, the NEIC reorganized and criminal
            investigators were generally assigned within OCEFT’s Criminal Investigation
            Division. OCEFT stated its opinion that the authorizations from 1988 and 2005
            permitted home-to-work use by criminal investigators and protective service
            personnel. However, OCEPT agreed that the authorizations needed to be updated
            to include the current organizational information and GS-1810 personnel assigned
            to the protective service detail. Therefore, OCEFT needs to update in writing its
            Administrator’s approval for home-to-work usage and it must maintain the written
            authorization, as required by 31 U.S.C. 1344 (a)(2)(B), and update OCEFT
            internal policy accordingly.

            Additionally, OCEFT should have documentation to monitor vehicle usage.
            Section 3.2(g) of OCEFT Policy P-006 provides that “[government-owned
            vehicle] operators must submit required reports to management and provide
            information to track use and expenses and ensure the efficient and proper use of
            the government vehicle fleet.” We requested home-to-work support for three law
            enforcement vehicles in our sample. The law enforcement program office stated
            that home-to-work vehicles used by criminal investigators are authorized for the
            safe and efficient performance of criminal law enforcement and protective service




15-P-0001                                                                                      7
            duties under 31 U.S.C. § 1344(a)(2)(B); therefore, the law enforcement program
            is not required to fill out the forms.

            We acknowledge that the agency has no required forms for law enforcement
            vehicles; however, in accordance with the FMR, Subpart D, Section 102-34.205,
            the agency should monitor vehicles used for transportation between a residence
            and a place of employment.

            Because federal regulations state that agencies should monitor vehicles in
            home-to-work status, we believe that, at a minimum, OCEFT should ensure that
            an updated written authorization is on file and confer with the EPA to ensure that
            the agency has an acceptable level of documentation needed to meet its
            monitoring requirements. Having documentation would ensure that the agency
            has accurate records needed to manage and control the use of vehicles. The EPA’s
            lack of monitoring and supporting documentation increases the risk that the
            unauthorized use of the vehicles could go undetected.

            In March 2014, OCEFT said it is committed to updating and correcting the
            authorization for home-to-work use of vehicles by criminal investigators and
            protective service personnel. Also, OCEFT and the Agency Fleet Manager said
            they are working on acceptable documentation for monitoring, in order to ensure
            balance with investigative requirements.

   EPA Should Be Consistent in Documenting Emission Testing and
   State Inspections

            OCEFT Policy P-006 states that the maintenance, care and storage of
            government-owned vehicles requires EPA employees operating fleet motor
            vehicles to comply with federal policy and program rules for maintenance. The
            program rules are designed to ensure the proper use, care, safety, and efficiency of
            vehicles. The policy also states that preventive maintenance is the routine
            scheduled maintenance of motor vehicles, including the inspection of motor
            vehicles. Federal agencies must perform federally mandated emissions
            inspections when required by the relevant state motor vehicle administration.
            During our review of law enforcement vehicles, we noted that for our sample of
            three vehicles, emissions testing was not due for one vehicle, and another vehicle
            had the required testing and state inspection. The third vehicle did not have the
            testing, and the fleet manager could not provide a copy verifying the vehicle is
            registered with the state.

            We believe that the EPA should be consistent in performing maintenance and
            emission testing on its leased vehicles throughout the agency. In March 2014,
            OCEFT stated that “[w]hile fleet managers are following federal regulations for
            vehicle maintenance, utilization, and operator responsibilities, the adherence to
            those requirements could be more clearly documented within EPA’s systems.…”



15-P-0001                                                                                       8
   Conclusion
            The EPA needs to improve its oversight to ensure that fleet managers implement
            controls to protect the agency’s fleet in accordance with federal requirements. If
            the agency does not finalize and issue a fleet manual—and fleet managers are not
            following vehicle maintenance, utilization and operator responsibilities—the EPA
            is placing its $6 million-per-year fleet program in jeopardy of not being effective
            in accomplishing its mission, and is placing taxpayer funds at risk. The EPA has
            stated its plans to improve oversight of the fleet program by issuing a fleet
            manual, performing monthly usage and operator responsibility checks, and
            working with program offices with law enforcement vehicles on home-to work
            documentation. Should the EPA implement these actions, its oversight would
            improve the fleet program.

    Recommendations
            We recommend that the Assistant Administrator for Administration and
            Resources Management:

                   1. Finalize and issue the Fleet Management Manual to ensure that fleet
                      managers operate their programs within the EPA’s policies and
                      procedures.

                   2. Develop a scheduled maintenance program for each vehicle that is
                      owned or leased commercially by the agency. The program should
                      include vehicle emission testing as required by federal and state
                      policies.

                   3. Require fleet managers to use a tracking system for vehicle usage and
                      require vehicle operators to acknowledge their responsibilities as
                      required by program requirements, and support FMR, Subpart J,
                      Section 102-34.345 for operational data.

                   4. Require OCEFT to obtain the Administrator’s approval in writing for
                      home-to-work usage by OCEFT’s Criminal Investigation Division,
                      and maintain the approval as required by 31 U.S.C. 1344 (a)(2)(B), so
                      that the approval includes current organizational information and
                      personnel assigned to the protective service detail. Also, require
                      OCEFT to update its internal policy accordingly.

                   5. Require fleet managers with law enforcement vehicles to confer with
                      OARM on vehicle monitoring and make any needed changes, to
                      ensure it has an acceptable level of documentation needed for the
                      agency to meet its requirement to monitor vehicles, as stated in FMR,
                      Subpart D, Section 102-34.205.



15-P-0001                                                                                     9
    Agency Comments and OIG Evaluation
            Comments received from the Assistant Administrator for Administration and
            Resources Management agreed with Recommendations 1 through 5. The agency’s
            responses and corrective action plans are found in Appendix A.

            We agree with the agency’s responses to all recommendations. All
            recommendations are resolved and require no final response to this report.




15-P-0001                                                                                10
                                   Chapter 3
            EPA Needs to Increase Data Monitoring
               of Its Fleet Information System
            The EPA should increase the monitoring of data within the agency’s fleet
            information system or the AST. We identified missing, incomplete or incorrect
            information in the fleet system. In addition, user data input from one report or
            screen in the AST is not reported consistently in other system reports. The EPA
            has not developed or issued an AST manual or a list of procedures to ensure that
            users correctly input information into the system. The AST-programmed data
            checks are not effective in identifying differences in varying system reports.
            Federal requirements for fleet management require agencies to establish a fleet
            management information system that identifies and collects accurate inventory,
            cost, and usage data that covers the vehicle lifecycle.

            The GAO’s Standards for Internal Control in the Federal Government provides
            that application controls are designed to help ensure the completeness, accuracy,
            authorization and validity of all transactions during application processing. If data
            in the EPA’s fleet information system is not accurate, the agency is at risk of
            reporting errors to the federal information system.

   EPA’s Automotive Statistical Tool Is Its Fleet Information System
            According to the draft version of the Fleet Management Manual, as of
            December 2013, the AST is the electronic means for the agency to collect and
            report vehicle data. The AST is a secure website that can be accessed by
            authorized EPA employees and contractors. All data on a vehicle’s registration,
            identification, maintenance, fuel consumption, organizational alignment and
            ownership must be maintained in the AST. Fleet managers are responsible for
            ensuring the timely and accurate submission of vehicle data. The Agency Fleet
            Manager submits the EPA’s overall vehicle data annually to the Department of
            Energy and to the GSA via the FAST database.

            The EPA stated that the AST has some data checks for entry and certification.
            The data checks include:

                  Checks on the Master Record.
                  “Environmental Compliance Dashboard,” which identifies potential data
                   issues concerning mileage and fuel consumption.
                  “Verify Data Integrity” tool, which identifies data issues such as duplicate
                   vehicle identification numbers, high acquisition costs, high lease costs,
                   high maintenance costs, unreasonable fuel costs, and a miles-per-gallon
                   variance.


15-P-0001                                                                                      11
            The EPA said fleet managers and headquarters have roles in correcting data found
            in the Verify Data Integrity tool. The EPA noted that with respect to the tool
            itself, the tool is provided to allow fleet managers to quality check their data
            periodically throughout the fiscal year; if errors are found, the system will allow
            them to correct the errors within their access rights. The tool also allows
            headquarters to perform a quality check on end-of-the-year data; if errors are
            found, headquarters either contacts the fleet manager to make the corrections or
            headquarters itself makes the corrections. At a minimum, the data integrity tool is
            used to check for errors prior to the annual submission of the data to the FAST.

   Federal Regulations Governing Information System
   Data Management
            Federal regulations addressing information system data management for fleets are
            addressed in the FMR, Subchapter B, Subpart J, Section 102-34.340, which
            provides that a fleet management information system is required at the agency
            level to identify and collect accurate inventory, cost and usage data that covers the
            vehicle lifecycle. In addition, the system should provide the information necessary
            to satisfy reporting requirements and data required for the FAST. The GAO’s
            Standards for Internal Control in the Federal Government provides that
            application controls are designed to help ensure the completeness, accuracy,
            authorization and validity of all transactions during application processing.
            Controls should be installed where an application interfaces with other systems, in
            order to ensure that all inputs are received and valid, and outputs are correct and
            properly distributed.

   The AST Needs a Manual, a List of Procedures and More
   Data Checks
            The EPA should increase data monitoring of the agency’s fleet information
            system known as the AST. We identified missing, incomplete or incorrect
            information in the fleet system. In addition, reports are not consistently showing
            user data input throughout the system.

            Our audit found fleet managers either did not input fuel and maintenance receipts
            correctly or did not have receipts to record in the system. One program office
            recorded incorrect operating locations for its fleet due to the lack of knowledge
            that the system would allow the correct location. Once we pointed out to the
            agency that the system is not limited to specific locations, the program office
            subsequently corrected the addresses for its vehicles in the AST to show the
            actual operating location of its vehicles. Lastly, the EPA included a commercially
            leased vehicle in the AST, but the vehicle was a subcontractor-owned vehicle for
            which the EPA tracked vehicle expenses in the AST.




15-P-0001                                                                                     12
            The EPA has not developed or issued an AST manual or a list of procedures to
            define data elements to identify required corrections or verifications of data by
            system users. Users told us that they received on-the-job training from a mentor,
            and that experience with the AST has been gained by hands-on use. We believe
            that if users had a manual or a list of procedures to refer to in order to enforce the
            system’s data-input requirements, users could have identified corrections for these
            issues.

            When our audit team received formal training on the AST, we found that user
            data input from one report or screen in the AST is not consistent with other
            system reports. For one vehicle, we found that the “FY 2013 Fuel Usage/Cost
            History” screen showed odometer readings that ranged from 3,839 miles to 5,601
            miles when fuel purchases were made throughout the fiscal year. When we
            reviewed the same vehicle on another AST screen titled “Flex Fuel Consumed
            Drilldown,” the vehicle’s minimum and maximum odometer readings were both
            5,601 miles. The EPA’s trainer noted that the AST’s Verify Data Integrity tool
            should have identified the error. To date, the agency has not been able to explain
            what caused the error. We believe that the AST’s data checks are not effective in
            identifying mistakes in data from detailed vehicle records for summary reports.

            In April 2014, the EPA stated that by July 2014 it plans to develop and distribute
            an AST user manual for guidance on system navigation and use. Additionally, the
            agency said that by August 2014 it would hold a live walk-through webinar to
            help users understand the system and its capabilities. The EPA said it will review
            the AST and develop additional quality controls for data, as needed, in order to
            better manage the EPA’s fleet data.

   Conclusion
            The EPA needs more data monitoring of its fleet information system to ensure
            that users make corrections to inaccurate information and data checks are
            effective in identifying errors. If the EPA does not develop and issue an AST
            manual or a list of procedures, and the agency does not increase its data checks in
            the information system, inaccurate data and reports in the AST may lead to
            incorrect decision-making regarding the EPA’s fleet. Also, the EPA increases the
            risk that the information system will have inaccurate information reported in its
            annual submission to the FAST. The agency said it plans to issue an AST manual,
            help users with system training, and develop additional quality controls as needed.
            Should the EPA implement these actions, information system monitoring would
            be an improvement for the fleet program.




15-P-0001                                                                                      13
   Recommendations
            We recommend that the Assistant Administrator for Administration and
            Resources Management:

                   6. Develop and issue an AST manual or a list of procedures for AST
                      users to follow, in order to help ensure that users input correct data
                      into the system. At a minimum, require training for all fleet managers
                      and new users.

                   7. Perform data checks of the AST system in order to reveal mistakes in
                      extracting data from vehicle records for summary reports, and to make
                      corrections to the data as necessary.

   Agency Comments and OIG Evaluation
            Comments received from the Assistant Administrator for Administration and
            Resources Management agreed with Recommendations 6 and 7. The agency’s
            responses and corrective action plans are found in Appendix A.

            We agree with the agency’s responses to all recommendations. All
            recommendations are resolved and require no final response to this report.




15-P-0001                                                                                  14
                                Status of Recommendations and
                                  Potential Monetary Benefits
                                                                                                                            POTENTIAL MONETARY BENEFITS (in
                                                  RECOMMENDATIONS                                                                       $000s)

                                                                                                                Planned
    Rec.    Page                                                                                               Completion    Claimed
    No.      No.                       Subject                         Status1        Action Official             Date       Amount      Agreed-To Amount

     1        9    Finalize and issue the Fleet Management               O       Assistant Administrator for    12/1/14
                   Manual to ensure that fleet managers operate                     Administration and
                   their programs within the EPA’s policies and                   Resources Management
                   procedures.

     2        9    Develop a scheduled maintenance program for           O       Assistant Administrator for    8/14/15
                   each vehicle that is owned or leased                             Administration and
                   commercially by the agency. The program                        Resources Management
                   should include vehicle emission testing as
                   required by federal and state policies.

     3        9    Require fleet managers to use a tracking              O       Assistant Administrator for    8/14/15
                   system for vehicle usage and require vehicle                     Administration and
                   operators to acknowledge their responsibilities                Resources Management
                   as required by program requirements, and
                   support FMR, Subpart J, Section 102-34.345
                   for operational data.
     4        9    Require OCEFT to obtain the Administrator’s           O       Assistant Administrator for     1/1/15
                   approval in writing for home-to-work usage by                    Administration and
                   OCEFT’s Criminal Investigation Division, and                   Resources Management
                   maintain the approval as required by 31 U.S.C.
                   1344 (a)(2)(B), so that the approval includes
                   current organizational information and
                   personnel assigned to the protective service
                   detail. Also, require OCEFT to update its
                   internal policy accordingly.

     5        9    Require fleet managers with law enforcement           O       Assistant Administrator for     1/1/15
                   vehicles to confer with OARM on vehicle                          Administration and
                   monitoring and make any needed changes, to                     Resources Management
                   ensure it has an acceptable level of
                   documentation needed for the agency to meet
                   its requirement to monitor vehicles, as stated in
                   FMR, Subpart D, Section 102-34.205.

     6       14    Develop and issue an AST manual or a list of          O       Assistant Administrator for    11/1/14
                   procedures for AST users to follow, in order to                  Administration and
                   help ensure that users input correct data into                 Resources Management
                   the system. At a minimum, require training for
                   all fleet managers and new users.

     7       14    Perform data checks of the AST system in order        O       Assistant Administrator for    11/1/14
                   to reveal mistakes in extracting data from                       Administration and
                   vehicle records for summary reports, and to                    Resources Management
                   make corrections to the data as necessary.




1   O = Recommendation is open with agreed-to corrective actions pending.
    C = Recommendation is closed with all agreed-to actions completed.
    U = Recommendation is unresolved with resolution efforts in progress.




15-P-0001                                                                                                                                        15
                                                                                       Appendix A

                   OARM Response to Draft Report
                        and OIG Comment




      Thank you for the opportunity to review your draft report. The Office of Administration and
      Resources Management agrees with the audit findings, and for all recommendations we have
      provided corrective actions and completion dates in Attachment 1.

      If you have any questions regarding our response, please contact Yvette Jackson, Deputy
      Director, Facilities Management and Services Division, at (202) 564-2030.


      Attachment

      cc:     Nanci Gelb
              John Showman
              Lynnann Hitchens
              Brandon McDowell
              Vaughn Noga
              Tami Franklin
              Steve Blankenship
              Stacey Dey-Foy
              Yvette Jackson
              Marcia Hirt-Reigeluth
              Gloria Taylor-Upshaw


15-P-0001                                                                                           16
                    Office of Administration and Resources Management
                         Response to Draft Report Recommendations
                                             and
                                   Corrective Action Plan


  OIG Recommendation 1: Finalize and issue the Fleet Management Manual to ensure that fleet
  managers operate their programs within the EPA’s policies and procedures.

OARM concurs with this recommendation. OARM has completed a final, OGC-approved draft Fleet
Management Manual and is preparing the document for submittal via the Agency Directives Clearance Review
Process.

Estimated completion date: December 1, 2014.


  OIG Recommendation 2: Develop a scheduled maintenance program for each vehicle that is
  owned or leased commercially by the agency. The program should include vehicle emission
  testing as required by federal and state policies.

OARM concurs with this recommendation. OARM will continue to reiterate fleet managers’ responsibilities for
ensuring that all vehicles have a scheduled maintenance program and have proper emissions inspections
completed. OARM will continue to educate and reinforce this requirement via annual trainings, quarterly
newsletters, and quarterly conference calls. OARM will conduct periodic random documentation reviews/audits
to ensure that fleet managers and vehicle operators are properly fulfilling their fleet duties. Additionally, OARM
will investigate the possibility of automating maintenance/emissions reminders and certifications so that they
can be tracked within the Agency’s fleet database, the Automotive Statistical Tool (AST).
Estimated completion date: On-going activity. August 14, 2015.


  OIG Recommendation 3: Require fleet managers to use a tracking system for vehicle usage and
  require vehicle operators to acknowledge their responsibilities as required by program
  requirements and to support the FMR, Subpart J, Section 102-34.345 for operational data.

OARM concurs with this recommendation. EPA already mandates that all vehicle trips be logged using EPA
Form 4920-3, Daily Vehicle Utilization Report (DVUR) and entered into EPA’s AST database. EPA also requires
that all vehicle operators sign EPA Form 4920-20, Motor Vehicle Operator Responsibilities (MVOR) which
outlines accountability when using a government vehicle. The DVUR and MVOR documentation requirements
are outlined in the Fleet Management Manual.
OARM will continue to educate fleet managers on documentation requirements in order to implement these
forms into their fleet operations. As such, OARM will conduct periodic random documentation reviews/audits to
ensure that fleet managers and vehicle operators are properly fulfilling their fleet duties. These reviews/audits
will continue until such time that OARM can reasonably determine that implementation of the forms has been
completed.

Estimated completion date: On-going activity. August 14, 2015.




15-P-0001                                                                                                      17
  OIG Recommendation 4: Require OCEFT to obtain an update to the Administrator’s approval in
  writing for home-to-work usage and maintain as required by 31 U.S.C. 1344 (a)(2)(B), so that the
  approval includes current organizational information and GS 1810personnel assigned to the
  protective service detail. Also, require the OCEFT to update its internal policy accordingly.

OARM concurs with this recommendation. OARM will continue to coordinate with OCEFT officials in order to
develop a home-to-work authorization for law enforcement (LE) vehicles. OARM will provide support and
guidance to OCEFT, as needed.

Estimated completion date: January 1, 2015.


  OIG Recommendation 5: Require fleet managers with law enforcement vehicles to confer with
  the OARM on vehicle monitoring and make any needed changes, to ensure it has an acceptable
  level of documentation needed for the agency to meet its reporting requirement to monitor
  vehicles as required by the FMR, Subpart D, Section 102-34.205; and to ensure the accurate
  recording of inventory, costs and operational data needed to manage and control vehicle usage
  as required by Subpart J, Section 102–34.345.

OARM concurs with this recommendation. Most vehicle operators are required to complete EPA Form 4920-
3, Daily Vehicle Utilization Report (DVUR). While not required, OARM will work with OCEFT to develop vehicle
logs that provide needed information without compromising officer safety or the integrity of investigations. We
will periodically perform random reviews of documentation and operational data in AST to ensure accuracy and
compliance with these requirements.

Estimated completion date: January 1, 2015.


  OIG Recommendation 6: Develop and issue an AST manual or a list of procedures for AST users
  to follow, in order to help ensure users input correct data into the system. At a minimum, require
  training for all fleet managers and new users.

OARM concurs with this recommendation. OARM has already developed the AST User Manual and distributed
the manual on July 30, 2014. OARM will also develop a training regimen for AST users and conduct training
sessions to ensure that data is accurately entered into AST.

Estimated completion date: November 1, 2014, for training sessions.


  OIG Recommendation 7: Perform data checks of the AST system in order to reveal mistakes in
  extracting data from vehicle records for summary reports, and to make corrections to the data as
  necessary.

OARM concurs with this recommendation. OARM plans to conduct a review of the system to identify
inconsistencies and data gaps and implement necessary solutions within AST. Subject to the results of this
review, actionable items will be addressed accordingly.

Estimated completion date: November 1, 2014, for AST review; resulting updates will be ongoing with a
timeline dependent on project scope.




15-P-0001                                                                                                    18
                                                                                 Appendix B
                                     Distribution
Office of the Administrator
Assistant Administrator for Administration and Resources Management
Assistant Administrator for Enforcement and Compliance Assurance
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Affairs
Associate Administrator for Public Affairs
Principal Deputy Assistant Administrator, Office of Administration and Resources Management
Director, Office of Acquisition Management, Office of Administration and
   Resources Management
Director, Office of Administration, Office of Administration and Resources Management
Director, Office of Policy and Resource Management, Office of Administration and
   Resources Management
Director, Facilities Management and Services Division, Office of Administration, Office of
   Administration and Resources Management
Director, Office of Criminal Enforcement, Forensics and Training, Office of Enforcement and
   Compliance Assurance
Deputy Director, Office of Acquisition Management, Office of Administration and
   Resources Management
Deputy Director, Office of Policy and Resource Management, Office of Administration and
   Resources Management
Deputy Director, Facilities Management and Services Division, Office of Administration, Office
   of Administration and Resources Management
Audit Follow-Up Coordinator, Office of Administration and Resources Management
Audit Follow-Up Coordinator, Office of Acquisition Management, Office of Administration and
   Resources Management
Audit Follow-Up Coordinator, Office of Enforcement and Compliance Assurance




15-P-0001                                                                                   19
